/°

nNo.
In the

Supreme Court of the United States
WILLIAM RUPERT,
Petitioner,
v.
SUSAN BOND, et al„
Respondents.
On Petition For Writ of Certiorari
To the United States Court Of Appeals
For The Ninth Circuit
PETITION FOR WRIT OF CERTIORARI

WILLIAM RUPERT
P.O. Box 66403
Scotts Valley, CA 95067-6403
Telephone: (831) 336-9520
Facsimile: (831) 336-9528
emfwtr@comcast.net
Email:
Petitioner
Pro Se

FILED
OPT t 5 2019
OFFSCF. OF THE CLERK
Si )PRF.M£ COURT. U.S.

QUESTIONS PRESENTED
(1) Should the circuit splits over the use of FRCP
12(b)(6) motions (prior to discovery or an evidentiary
hearing), to rule upon a disputed issue of fact (the
“sham litigation” or “fraud exception” to claimed
Noerr-Pennington immunity), be resolved?; and if so,
should the resolution favor judicial expediency?
or fair, orderly and prudent procedures?
(2) Whether, Post -Walden, due process permits a
court to exercise personal jurisdiction over an out-ofstate defendant, who individually targets a known
forum resident plaintiff, if they send knowingly false
statements into the forum state, intending that
reliance take place therein, if reasonable and
detrimental reliance takes place in the forum state?
(3) Whether the numerous circuit splits between
the Ninth Circuit and other Circuits, concerning the
RICO Statutes should be addressed and resolved?
(A) Whether injunctive relief, under 18 U.S.C.
§ 1964(a), is available, in a private civil RICO
action, brought pursuant to 18 U.S.C. § 1964(c)?
(B) In a private civil RICO action, is
nationwide service of process authorized only by
18 U.S.C. § 1965(b)? or can it also be
alternatively authorized by 18 U.S.C. § 1965(d)?
(C) Whether the “ends of justice” language in
18 U.S.C. § 1965(b) implies a single rigid test, or
whether a more flexible standard should be
utilized, on a case by case basis?

11

PARTIES TO THE PROCEEDINGS
Petitioner William Rupert was the plaintiff in
the district court proceedings and appellant in the
court of appeals proceedings. Respondents Susan
Bond, James Rupert, Gile R. Downes, Edward S.
Zusman, Matthew Whitman, Michelle Johansson,
Schulte Anderson Downes Aronson & Bittner, P.C.,
Cartwright Whitman Baer PC, and Markun Zusman
& Compton, LLP were the defendants in the district
court proceedings and appellees in the court of
appeals proceedings.
The district court chose to refer to the four (4)
sets of defendants as: (1) the Sibling Defendants Susan Bond and her brother James Rupert; (2) the
Downes Defendants - Gile R. Downes and Schulte
Anderson Downes Aronson & Bittner, P.C.; (3) the
Zusman Defendants - Edward S. Zusman and
Markun Zusman & Compton, LLP; and, (4) the
Cartwright Defendants - Matthew Whitman,
Michelle Johansson and Cartwright Whitman Baer,
PC. (App. C, 7a). Petitioner shall continue to refer
to the respondents/defendants/appellees using the
same terminology as the District Court.
RELATED CASES
*

Rupert u. Bond, et al. (.Rupert I), U.S.
District Court for the Northern District of
California. Case No. 5:09-cv-02758-JF,
Order Granting Motion to Dismiss For Lack
of Personal Jurisdiction; Entered
September 9, 2010. (App. G, 75a-82a)

Ill

*

In the Matter of the Irene E. Rupert Trust,
CV10030497, Clackamas County, State of
Oregon. Judgment entered on January 4,
2011;

*

In the Matter, of the Samuel J. Rupert Trust,
CV10030498, Clackamas County, State of
Oregon. Judgment entered on April 28,
2011

*

In the Matter of the Samuel J. Rupert Trust,
CV10050251, Clackamas County, State of
Oregon. Judgment entered on October 4,
2011

*

Bond v. Rupert, Case No. CV 172524,
Superior Court of California, Santa Cruz
County. Notice of Entry of Judgment on
Sister-State Judgment, entered on
November 3, 2011

*

Rupert v. Bond, et al., 134 S.Ct. 2738 (2014),
United States Supreme Court. Petition for
Writ of Certiorari (No. 13-1322) to the Court
of Appeals of Oregon Denied. Entered on
June 9, 2014

IV

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED

1

PARTIES TO THE PROCEEDINGS

11

RELATED CASES

11

TABLE OF CONTENTS

IV

APPENDIX TABLE OF CONTENTS

Vll

TABLE OF AUTHORITIES

IX

PETITION FOR A WRIT OF CERTIORARI

1

OPINIONS BELOW

1

JURISDICTION

2

STATUTES AND CONSTITUTIONAL
PROVISIONS INVOLVED...... .............

2

PREFATORY STATEMENTS

2

LITIGATION HISTORY OF RUPERTI.

7

INTRODUCTION: WHY R UPERTII HAS
BEEN BROUGHT AS A RICO ACTION.....

9

STATEMENT OF THE CASE

13

REASONS FOR GRANTING THE PETITION... 14

V

I. There Are Significant Inter-Circuit Splits
With Regards To Adjudication Of “Sham
Litigation” Exceptions (An Issue Of Fact),
To A Claimed Noerr-Pennington
Immunity Affirmative Defense....................

14

A. The Circuits Are Split Upon When
The Adjudications Can Be Made....

14

B. The Circuits Are Split Upon How
The Adjudications Should Be Made

16

C. Resolution Of These Circuit Splits
Will Provide Broad Benefits...........

18

II. Deep Inter-Circuit Splits Have Developed,
Concerning How And When To Apply
Walden v. Fiore, 134 S.Ct. 1115 (2014),
To Targeted Torts Involving Intentional
Misrepresentations Of Facts.........................

19

A. The Dissenting Opinion in Morrill v.
Scott Financial Cbrp.,873 F.3d 1136,
1155 (9th Cir. 2017) Acknowledges
An Implicit Circuit Split With The
Sixth Circuit Case Of MAG IAS
Holdings Inc. v. Schmuckle, 854 F.3d
894 (6th Cir. 2017)..................................

19

B. Then Axiom Foods, Inc. v. Acerchem
International, Inc., 874 F.3d 1064, 1070
(9th Cir. 2017), Relied Upon Walden To
Effectively Eliminate Individualized
Targeting Of Known Forum Residents... 21

VI

C. The First, Second And Fifth Circuits
Also Distinguish Walden, In Cases
Where “Targeting”, And “Fraudulent
Misrepresentations” Are Alleged........

23

III. The Inter-Circuit Splits Over Whether
Equitable Relief Is Available In A
Private Civil RICO Action Should Be
Addressed And Resolved........................

26

IV. The Ninth Circuit’s Decision Also
Reflects an Existing Circuit Split With
Regards To Other RICO Issues.............

28

A. The Circuit Splits Over Which
Subsections Of 18 U.S.C. § 1965 Can
Authorize Nationwide Service Of
Process Should Be Resolved................

28

B. The Circuit Splits Concerning The
“Ends Of Justice” Standard Should
Also Be Addressed And Resolved....

29

V. The Instant Case, Rupert II, Would Allow
Meaningful Consideration Of Any, Or All,
Of The Circuit Splits Specified Above........

31

A. The Circuit Splits Regarding Use Of
FRCP 12(b)(6) Motions To Dismiss, The
Noerr-Pennington Doctrine, And The
“Sham Litigation” Exception Are All
Involved In The Instant Case................

32

Vll

B. The Circuit Splits Regarding The
Impact, If Any, Of Walden v. Fiore,
134 S.Ct. 1115 (2014), To Intentional
Torts Involving Fraudulent
Misrepresentations Sent Into A
Forum State, Can Be Effectively
Reached And Resolved..........................

33

C. The Circuit Splits Regarding The
Availability Of Equitable Relief In
Private Civil RICO Actions Can Be
Effectively Reached By Review Of
The Instant Case................................

36

D. The Circuit Splits Concerning RICO’s
Nationwide Service Of Process
Provisions, And RICO’s “Ends Of
Justice” Jurisdiction, Are Well
Presented By The Instant Case...........

39

CONCLUSION

40

APPENDIX TABLE OF CONTENTS
Page
APPENDIX A - Memorandum Opinion, Of
The Ninth Circuit Court Of Appeals,
Appeal No. 15-15831 (Unpublished),
Filed June 11, 2019.........................................
APPENDIX B - Order of the Ninth Circuit
Court of Appeals, Appeal No. 15-15831,
Denial of Petition for Rehearing and
Petition for Rehearing En Banc,
Filed July 18, 2019...........................................

la

5a

Vlll

APPENDIX TABLE OF CONTENTS
(Continued)
Page
APPENDIX C - Order Granting Defendants’
Motions To Dismiss; Denying Defendants Gile
R. Downes And Schulte, Anderson, Downes,
Aronson & Bittner, P.C.’s Motion For Sanctions,
USDC for the Northern District of California,
Case No. 5:12-cv-05292-BLF;
Rupert v. Bond, et al., 68 F. Supp. 3d 1142,
6a
Filed September 22, 2014.......... .............................
APPENDIX D - Order Denying Plaintiffs
Motion For Relief From Final Judgment,
USDC for the Northern District of California,
Case No. 5:12-cv-05292-BLF;
Filed January 6, 2015..........................................

58a

APPENDIX E - Judgment; USDC for the
Northern District of California,
Case No. 5:12-cv-05292-BLF;
Filed January 6, 2015...................................

70a

APPENDIX F - Order Denying Plaintiffs
Second Motion to Alter or Amend Judgment;
USDC for the Northern District of California;
Case No. 5:12-cv-05292-BLF;
Filed March 27, 2015............................................

71a

APPENDIX G - Order Granting Motion to
Dismiss for Lack of Personal Jurisdiction,
USDC for the Northern District of California,
Case No. 5:09-cv-02758-JF (Rupert I);
Filed September 9, 2010......................................

75a

IX

APPENDIX H - Relevant Statutory Provisions
And Judicial Rules; 18 U.S.C. § 1964(a)(b)(c)(d),
83a
18 U.S.C. § 1965(a)(b)(c)(d)..................................

TABLE OF AUTHORITIES
Page
Cases
Axiom Foods. Inc, v. Acerchem
International. Inc.
874 F.3d 1064, 1070 (9th Cir. 2017).........21,22,35
Butcher’s Union Local No. 498 v.
SDC Inv., Inc.
788 F.2d 535, 538 (9th Cir. 1986)
Cheminor Drugs. Ltd. V. Ethyl Corn.
168 F.3d 119, 123 (3rd Cir. 1999)..

29

16,17

Chevron Corn, v. Donziger
833 F.3d 74, 137-140 (2nd Cir. 2016)......27,28,36
Chevron Corn, v. Donziger
974 F.Supp.2d 362 (2014)
Cory v. Aztec Steel Building. Inc.
468 F.3d 1226, 1231 (10th Cir. 2006)

36

29,30

David v. Signal Int’l
588 F.Supp.2d 718, 724 (E.D. La. 2008).......30,31
David L. v. Superior Court
29 Cal.App.5th 359, 372-373 (2018)

23

X

TABLE OF AUTHORITIES (Continued)
Page
Cases (Continued)
Edwards v. City of Goldsboro
178 F.3d 231, 243-244 (4th Cir. 1999)

15

ESAB Group. Inc, v. Centricut. Inc.
126 F.3d 617, 627 (4th Cir. 1997)

29

Ginns v. Savage
61 Cal.2d 520, 524, fn. 2 (1964)

22

Hanson v. Denckla
357 U.S. 235, 251-255 (1958)

6,7,9,11,17,35

Hargrove v. Oki Nursery. Inc..
636 F.2d 897, 899-900 (2nd Cir. 1980)
Hazel-Atlas Glass Co. v. Hartford-Empire Co..
322 U.S. 238, 245-246 (1944)

24

9

LaBolita v. Home Rental Connections Ltd.
Civil No. 16-11433-LTS; USDC
District Massachusetts (June 13, 2017)

24

Lazzarone v. Bank of America.
181 Cal.App.3d 581, 596-97 (1986)

5,6

Lisak v. Mercantile Bancorp, Inc..
834 F.2d 668, 671 (7th Cir. 1987)

29

MAG IAS Holdings Inc, v. Schmuckle
854 F.3d 894 (6th Cir. 2017)

19

XI

TABLE OF AUTHORITIES (Continued)
Page
Cases (Continued)
Mellon Bank. N.A. v. Temiskv,
18
999 F.2d 791, 795 (4th Cir. 1993)
Morrill v. Scott Financial Corn.,
873 F.3d 1136, 1150-1155
(9th Cir. 2017).....................

19-21,35

Murphy v. Erwin-Wassev, Inc..
460 F.2d 661, 664 (1st Cir. 1972)

23

National Organization for Women. Inc.
v. Scheidler
267 F.3d 687, 695 (7th Cir. 2001)

27

PT United Can Co. v. Crown Cork &
Seal Co..
138 F.3d 65, 70 (2nd Cir. 1998)

29

Professional Real Estate Investors. Inc.
v. Columbia Pictures Indus.
508 U.S. 49, 60 n.5 (1993)
Related Companies. LP v. Ruthling
Case No. 17-CV-4175
USDC SDNY (December 15, 2017)

17,18,32

24,25

Religious Technology Center v. Wollersheim
796 F.2d 1076 (9th Cir. 1986)

27

Republic of Panama v. BCCI Holdings
(Luxembourg) S.A.
119 F.3d 935, 942-48 (11th Cir. 1997)

29

Xll

TABLE OF AUTHORITIES (Continued)
Page
Cases (Continued)
Rolls-Rovce v. Heros. Inc.
578 F.Supp.2d 765, 779-80
(N.D. Texas 2008)...............

30

Rupert v. Bond
68 F.Supp.3d 1142 (2014)

31

Rupert v. Bond, et al.
134 S.Ct. 2738 (2014)

38

Scheidler v. National Organization for
Women, Inc. (NOW I)
537 U.S. 393, 397 (2003)

27

Scheidler v. National Organization for
Women. Inc. (NOW II)
547 U.S. 9, 16 (2006)...

27

Trois v. Apple Tree Auction Center. Inc..
882 F.3d 485, 491 (5th Cir. 2018).......

26

Xechem, Inc, v. Bristol-Myers Squibb Co.
372 F.3d 899, 901 (2004)

15

Walden v. Fiore
134 S.Ct. 1115 (2014)
Wien Air Alaska. Inc, v. Brandt.
195 F.3d 208, 212-213 (5th Cir 1999)

19,33,34

25,26

Xlll

TABLE OF AUTHORITIES (Continued)
Page
Cases (Continued)
Wright v. Hazen Investments. Inc.
293 Or. 259, 264 (1982)

27

United States v. Throckmorton
98 U.S. 61, 65-66 (1878)

9

Statutes
UNITED STATES CODE

18U.S.C.
18 U.S.C.
18U.S.C.
18 U.S.C.
18 U.S.C.
28 U.S.C.
29 U.S.C.

§
§
§
§
§
§
§

1964...
1964(a)
1965...
1965(b)
1965(d)
1738...
1254(1)

2
27
2,28
29,39
29
6,12
2

OREGON REVISED STATUTES
7

ORS 28.110
Rules
FEDERAL RULES OF CIVIL PROCEDURE
FRCP
FRCP
FRCP
FRCP
FRCP

12(b)....
12(b)(2)
12(b)(6)
13........
28(j).....

18
7,17,18,32,40
............ 14,32
18
13

XIV

TABLE OF AUTHORITIES (Continued)
Page
Rules (Continued)
FRCP 60(d)(l)&(3)

9

SUPREME COURT RULES
Rule 10(a)

40,41

Other Authorities
RICO’s “Liberal Construction Clause”
Pub. L. 91-452, title IX, § 904,
Oct. 15, 1970, 84 Stat. 947............

27

1
PETITION FOR A WRIT OF CERTIORARI
William Rupert petitions for a writ of certiorari
to review the judgment of the United States Court of
Appeals for the Ninth Circuit in this case.

OPINIONS BELOW
The Ninth Circuit’s unpublished Memorandum
Opinion is reproduced at App. A, la-4a. The Ninth
Circuit’s denial of petitioner’s petition for rehearing
and rehearing en banc is reproduced at App. B, 5a.
The Order Granting Motions to Dismiss, etc., of the
District Court for the Northern District of California
is reported at Rupert v. Bond, 68 F. Supp.3d 1142
(September 22, 2014) and reproduced at App. C, 6a57a. The Order Denying Plaintiffs Motion For
Relief From Final Judgment, of the District Court
for the Northern District of California (January 6,
2015) is reproduced at App. D, 58a-69a. The
Judgment, of the District Court for the Northern
District of California (January 6, 2015) is
reproduced at App. E, 70a. The Order Denying
Plaintiffs Second Motion to Alter or Amend
Judgment, of the District Court for the Northern
District of California (March 27, 2015) is reproduced
at App. F, 71a-74a. The Order Granting Motion to
Dismiss for Lack of Personal Jurisdiction, in Rupert
I (USDC NDCA Case No. 5:09-cv-02758-JF), by
Judge Jeremy Fogel, (September 9, 2010) is
reproduced at App. G, 75a-82a.

2
JURISDICTION
The Court of Appeals entered judgment on June
11, 2019. App. A, la-4a. The court denied a timely
petition for rehearing and rehearing en banc on July
18, 2019. App. B, 5a. This Court has jurisdiction
under 29 U.S.C. § 1254(1).

STATUTES AND CONSTITUTIONAL
PROVISIONS INVOLVED
This case involves the interpretation of 18
U.S.C. § 1964(a) & (c), and 18 U.S.C. § 1965(b) & (d).
The entire statutes containing these subsections are
set forth in App. H, 83a-85a.

PREFATORY STATEMENTS
Due to the fact that neither the original action
from 2009, commonly referred to as “Rupert I”1, or
the current action commenced in 2012, commonly
referred to as “Rupert II”2 progressed past the
pleadings stage, the facts alleged in the pleadings
are significant, because they were supposed to be
assumed to be true.
Therefore, the factual statements presented
herein are, unless otherwise stated, taken from the
Corrected Second Amended Complaint (“SAC”), by
1 USDC NDCA Case No. 5:09-cv-02758-JF
2 USDC NDCA Case No. 5:12-cv-05292-BLF

3
reference to CD 106 and the paragraph (“f ”) number,
or page number, within the operative pleading. This
operative pleading can be found at NDCA CD 1063,
pp. 1-134; or at Ninth Circuit ECF 21-34, pp. 6-139.
Also, the SAC includes an Appendix A, which
lists the factual details for each of the 54 Predicate
Rico Acts that are the foundation of Rupert II. (CD
106, pp. 114-127)
Additionally, terminology used in the SAC needs
to be properly understood, to correctly ascertain
Petitioner/Appellant/Plaintiff William Rupert’s
(“Plaintiff William”) theory of the case. For instance,
the phrase “the Big Lie” is mentioned throughout
the SAC (and repeatedly in the District Court’s
rulings, albeit inaccurately - App. C, 7a, 11a, 12a,
48a, 51a and 52a; App. D, 66a5).

3 The references to “CD” means the Clerk’s Docket in the
District Court, for USDC NDCA Case No. 5-12-cv-05292-BLF,
commonly referred to as Rupert II. Due to recently discovered
inaccuracies, and unreasonable size reductions, in the version
of the SAC, within the Excerpts of Record filed by the
Appellees, Petitioner shall refer to the SAC filed in the district
court (CD 106, pp. 1-134), instead of the distorted version filed
with the Ninth Circuit (ECF 21-3, pp. 6-139).
4 The references to “ECF”, shall mean the appellate court
docket number for Ninth Circuit Court of Appeal Case No. 1515831.
5 As District Court Judge Freeman inaccurately stated, when
Plaintiff William unsuccessfully tried to correct her, in a
reconsideration motion: “The Court identified the ‘Big Lie’ as
‘the statement that Irene Rupert, and not Plaintiff, was the
trustee of the Samuel Rupert Trust.’ Dismissal Order at 4.”
(App. D, 66a).

4
As alleged in the SAC, “the Big Lie” was created
by Defendant Downes (CD 106, f f 7, 18, 112), and
Defendant Susan Bond (CD 106, f f 6, 18-23, 111), as
part of the RICO Stage 2 scheme to cover-up and
conceal Defendant Susan Bond’s breaches of trust
and fiduciary duties, for the first 7 months after
Samuel Rupert died, on October 12, 2008 (as an
illegitimate intermeddling trustee de son tort).
Defendant Susan Bond refused to provide
Plaintiff William (as a permissible distributee of the
irrevocable Samuel Rupert Trust she was
administering), with a proper and sufficient
“accounting”, for her open and notorious
administration of $900,000 in trust assets, as the
self-proclaimed “Successor Trustee” (CD 106, f f 18,
111), from October 12, 2008 to May 12, 2009 (CD 58,
pp. 82-83), after Plaintiff William sent her a formal
objection to her initial “financial statement” (CD 58,
pp. 87-92), that was in the nature of a static position
statement as of March 31, 2009 (CD 58, p. 83).
However, Defendant Susan Bond never
responded to the demand letter from Plaintiff
William. (CD 106; SAC ft 22, 23) Instead, there
was the cover-up scheme, that was premised upon
“the Big Lie” (See RICO - Stage Two; SAC, f 112).
The “Big Lie” cover-up scheme is alleged,
throughout the SAC, to involve:
“the objectively baseless assertion that Susan’s
mother, Irene Rupert, had been the trustee (not
Susan), after Samuel Rupert died.”
(CD 106; SAC, f 23, p. 27:20-22).

5
To date, the cover-up scheme has worked, and it
has enabled Defendant Susan Bond to avoid her
fiduciary duty to account for her open and notorious
administration of all trust assets, for two separate
trusts, for the first 7 months after Samuel Rupert
died. (CD 106; SAC H 1, p. 4:12-17, If 6)
Additionally, the term “Extrinsic Fiduciary
Fraud” is used throughout the SAC, and in the
District Court’s rulings under review (App. C, 6a57a; App. D, 58a-69a). Plaintiff William used the
term to refer to the actions by Defendant Susan
Bond, when she concealed information (from Judge
Fogel in Rupert I, and from Judges Maurer and
Welch in Oregon), that she had a fiduciary duty to
disclose.
The meaning given to the term by the Plaintiff is
explained in H 27, of the SAC, by reference to the
case of Lazzarone v. Bank of America, 181
Cal.App.3d 581, 596-97 (1986), where the following
point of California law is set forth, with regards to a
form of fraud that California regards as “extrinsic
fraud” (but Oregon regards as only intrinsic fraud6):
“A second species of extrinsic fraud has also
been found where fiduciaries have concealed
information they have a duty to disclose.
(Citations.). This variety of extrinsic fraud
recognizes that, even if a potential objector is not
kept away from the courthouse, the objector
cannot be expected to object to matters not
6 This distinction was raised in a related case, which was
Rupert v. Bond, et al, 134 S.Ct. 2738 (2014), where Certiorari
to the Court of Appeals of Oregon was denied, on June 9, 2014.

6
known because of concealment of information by
a fiduciary.”
Lazzarone v. Bank of America.
181 Cal.App.3d 581, 596-97 (1986)
Another recurring term used throughout the
SAC, and by the District Court (App. D, 67a), also is
explained in f 27 of the SAC, and it is “the crucial
Hanson v. Denckla, 357 U.S. 235, 251-53 (1958),
jurisdictional factors (identity of trustee, location of
trustee, and location of trust assets)”.
This term refers to the jurisdictional factors that
were identified as significant by the Supreme Court,
with regards to multi-state trust jurisdiction
disputes (and withholding application of the Full
Faith and Credit Clause to state court judgments
with jurisdictional defects). The Hanson v. Denckla
Court ultimately determined that Maryland did not
have to give full faith and credit to judgments from
Florida, under 28 U.S.C. § 1738, because the
necessary parties included the trustee, who the
beneficiaries had neglected to join as a party, in the
Florida actions. (Id. at 254-255).
The case of Hanson v. Denckla is relevant to the
jurisdictional analysis, and the case is also relevant
to the alleged invalidity, and unenforceability, of the
related State of Oregon judgments obtained by
Defendant Susan Bond7, through alleged corrupt
7 In the two related Oregon cases concerning the Samuel
Rupert Trust (CV10030498 & CV10050251), only beneficiaries
participated in the actions, and the trustee from California
(William Rupert) (who could only appear through counsel), was

7
Officer of the Court misconduct by the Cartwright
Defendants and Defendant Matthew Whitman.
District Court Judge Freeman’s own rulings
contain a reference to the “crucial Hanson v. Denckla
jurisdictional factors” (See App. D, 67a), but she
concluded the concealment of these factors from
Judge Fogel was not significant.
LITIGATION HISTORY OF RUPERT I
Rupert I was stopped at the pleadings stage,
when former District Court Judge Jeremy Fogel
granted a Joint FRCP 12(b)(2) Motion to Dismiss for
Lack of Personal Jurisdiction, on September 9, 2010.
(App. G, 75a-82a).
The hearing on the MTD was on January 8,
2010, and the Reporter’s Transcript (CD 58; pp. 1237), shows that Judge Fogel thought the motion was
a close call, as he stated:
never served, or otherwise made a party to the action (as
trustee), and never appeared in the action (through counsel).
So these Oregon actions lack legitimacy for the same reason as
the Florida cases in Hanson v. Denckla, 357 U.S. 235, 251-253,
254-255 (1958) (failure to join the trustee as a party). In the
other related Oregon case, concerning the Irene Rupert Trust
(CV10030497), for a declaratory judgment concerning a trust,
Michigan beneficiary Defendant James Rupert was not made a
party to the action, as required under Oregon trust law (CD
106; SAC 11 88) (See Wright v. Hazen Investments, Inc., 293 Or.
259, 264 (1982); ORS 28.110), so fundamental jurisdiction over
that action was also never acquired, resulting in another lack of
legitimacy and another Oregon judgment that should be
unenforceable in California, and outside the Full Faith and
Credit Clause (28 U.S.C. § 1738).

8
“I think this is an interesting problem and I
think it’s a close question as to whether there is
personal jurisdiction. But I think Mr. Rupert
has articulated a cognizable or at least a
colorable argument, one that the court has to
take seriously, that there is a deliberate and
conspiratorial, that’s what’s he’s alleging here,
that his rights and obligations are in California.”
(CD 58; p. 16:17-24)
Judge Fogel was further informed, by the
defendants’ counsel that: (1) all trust assets were in
Oregon; (2) all trust administration activities had
been in Oregon and Defendant Susan Bond had no
business dealings in California (CD 58; p. 20:15-19);
(4) Irene Rupert, in Oregon, was the trustee of both
trusts (CD 58; p. 21:16-22); and (5) Irene Rupert’s
health did not allow her to travel to California (CD
58; p. 32:4-8), for the proposed mediation that was
discussed and agreed to (while the motion was taken
under submission8).
Moreover, in Rupert I, Judge Fogel’s dispositive
Order (App. G, 75a-82a), shows he relied upon the
following matters: (1) Plaintiff William’s concession
(in reliance upon Defendant Downes false
statements), that “none of the defendants has
property interests in California, does business in
California” (App. G, 80a); (2) “Susan’s . . . alleged
mismanagement of trust funds occurred in Oregon.”
(App. G, 82a); and, (3) the Downes Defendants
“communications with William related solely to their
8 Although Irene Rupert passed away on March 12, 2010, while
Judge Fogel had the FRCP 12(b)(2) under submission, Judge
Fogel was never informed of her death.

9
representation of Irene under Oregon law.” (App. G
82a).
Judge Fogel declined to exercise specific personal
jurisdiction on the basis that it would be
“unreasonable for it to exercise personal jurisdiction
over Defendants” (App. G, 82a)
“Reasonableness”, as Judge Fogel explained
earlier in his Order, was the 3rd prong of the test he
used for analyzing specific jurisdiction. (App. G, 80a)
INTRODUCTION: REASONS WHY RUPERTII
HAS BEEN BROUGHT AS A RICO ACTION
After Judge Fogel entered his dispositive order
in Rupert I, Plaintiff William discovered: (1) the
relevant and pertinent case of Hanson u. Denckla,
357 U.S. 235, 251-253, 254-255 (1958), that concerns
inter-state trust disputes over jurisdiction and the
non-enforceability of state court judgments that have
jurisdictional defects; (2) that an intentional fraud
on the court had been successfully perpetrated in
Rupert I, by Defendant Susan Bond, and her first set
of attorneys (the Zusman Defendants, from
California) (in conjunction with the Downes
Defendants and the California law firm retained by
them); and, (3) under FRCP 60(d)(l)&(3), he could
bring an independent action to set aside the
fraudulently obtained Order from Judge Fogel. (See
Hazel-Atlas Glass Co. v. Hartford-Empire Co., 322
U.S. 238, 245-246 (1944); United States v.
Throckmorton, 98 U.S. 61, 65-66 (1878))

10
This discovery was due to the documentary
evidence produced voluntarily by Defendant Susan
Bond’s second set of attorneys (the Cartwright
Defendants, and Defendant Matthew Whitman, from
Oregon), in the baseless and abusive litigations she
commenced in the State of Oregon, in Clackamas
County, after Irene Rupert passed away
The Cartwright Defendants produced over 2,000
pages of documents and business records (scanned
onto a CD, that they mailed to Plaintiff William in
California). (CD 106; SAC If 80). It took Plaintiff
William about 3 months to review these documents.
Ultimately, the documents showed that Defendant
Susan Bond had related business dealings, and
contacts, within California, with Charles Schwab
Institutional, and had caused disputed trust assets
worth more than $400,000.00 to be transferred from
Michigan to California, in February and March of
2009 (CD 106; SAC Tf 83). The documents further
showed that the trust assets stayed in California
during the litigation of Rupert I.
Rupert I was not a RICO action. Rupert II
became a RICO action because of the allegedly
corrupt and dishonest actions by the various errant
Officers of the Court that Defendant Susan Bond
collaborated with, or retained, to corruptly cover-up
and conceal her misappropriations of trust assets,
her breaches of trust and fiduciary duty, and her
unjust enrichment.
The instant private civil RICO action, by way of
the SAC, seeks various modes of relief, including:

11
(1) appropriate money damages, trebled, for
damages suffered to Plaintiff William
Rupert’s economic interests, employment
income, and vested property interest as a
remainder beneficiary of the Samuel Rupert
Trust, after it became irrevocable on October
12, 2008, when Samuel Rupert died
(CD 106; SAC, p. 110:4-12);
(2) appropriate equitable relief; including
recognition of Plaintiff William Rupert’s
Successor Trusteeship of the Samuel Rupert
Trust, effective July 8, 2009 (CD 106; SAC,
p. 110:17-20); and recognition of Defendant
Susan Bond’s “unclean hands” as an
intermeddling trustee de son tort (CD 106;
SAC, p. 110:21-111:2); plus recognition of
Defendant Susan Bond’s continuing duty to
account for the initial months when she was
improperly in charge as a trustee de son
tort (CD 106; SAC, p. 111:3-7)), and also
providing equitable relief from corrupt
rulings obtained by frauds upon the courts
(in Rupert I, and in Clackamas County,
Oregon) (CD 106; SAC, p. 111:8-23), by
corrupt Officers of the Court in aid of a
corrupt trustee de son tort, in proceedings
that lack legitimacy, and have the same
jurisdictional defects that were dispositive in
Hanson v. Denckla, 357 U.S. 235, 251-253,
254-255 (1958) (CD 106; SAC H 88) and are
unworthy of enforcement under either 28

12
U.S.C. § 1738, or under the California
Sister-State Money Judgment Act9;
(3) to recover double the amount of
misappropriated trust assets, from his late
father’s trust (CD 106; SAC, p. 111:25112:5), that disappeared or were diverted/
converted by Defendant Susan Bond, during
the first 9 months after their father died,
when she used fraud and deceit against
Plaintiff William Rupert, to stop him
from immediately accepting his nomination
to be in charge (as trustee and executor), by
her false claim, sent from Oregon to Plaintiff
in California, in a phone call, that she had
more recently amended estate plans, signed
by their parents, that nominated her ahead
of Plaintiff William Rupert, to be in charge.
(CD 106; SAC
18, 111) In fact, these
purported amended estate plans never
existed, but it took Plaintiff nine months to
realize he had been deceived. Moreover,
after Plaintiff William objected in writing to
the single financial statement Defendant
Susan Bond mailed to him in California,
9 This Act is relevant because of the California Money
Judgment Defendant Susan Bond obtained on November 3,
2011, from the Santa Cruz County Superior Court, based on
one of her corrupt and fraudulently obtained Oregon
judgments. District Court Judge Freeman rejected Plaintiffs
argument in his reconsideration motion (CD 161), that she
overlooked this contact with California, that was alleged in the
SAC (CD 106; SAC 1 99), and which represented Defendant
Susan Bond’s consent to jurisdiction, because Plaintiff raised
the argument in a motion for reconsideration, and not sooner.
(See App. D, 61a).

13
dated May 12, 2009, which she signed as
“Successor Trustee” (CD 58, pp. 82-83), she
has failed and refused to ever provide a
legitimate accounting for her management
of roughly $900,000.00 in assets, that
illegitimately began on October 12, 2008, as
soon as Samuel Rupert passed away (CD
106; SAC IK 22, 23); and,
(4) all other appropriate relief. (CD 106;
SAC, p. 113:3)
STATEMENT OF THE CASE
A timely Notice of Appeal was filed on April 24,
2015. After the briefing phase was concluded on
November 17, 2015 (ECF 38), the Ninth Circuit took
roughly 42 months, before the case was finally
submitted for determination on June 7, 2019.
During the 42 month delay, Plaintiff William
filed 13 separate FRAP 28(j) Letters, citing relevant
supplemental legal authorities. Plaintiff William
also filed a Request for Oral Argument, after his
10th FRAP 280) Letter. (ECF 63, 7/11/18)
On June 11, 2019, the Ninth Circuit entered its
unpublished Memorandum Opinion, that affirms all
actions by the lower court. None of the FRAP 280)
Letters were considered. Oral argument was
denied. (App. A, la-4a).
On July 18, 2019, the Ninth Circuit entered its
Order Denying Petition for Rehearing and Petition
for Rehearing En Banc. (App. B, 5a).

14
The instant Petition for Writ of Certiorari to the
Ninth Circuit follows.
REASONS FOR GRANTING THE PETITION
I.

There Are Significant Inter-Circuit Splits
With Regards To Adjudication Of “Sham
Litigation” Exceptions (An Issue Of Fact),
To A Claimed Noerr-Pennington
Immunity Affirmative Defense
A. The Circuits Are Split Upon When
The Adjudications Can Be Made

In the instant case, the Ninth Circuit’s
affirmance of the District Court’s ruling granting a
FRCP 12(b)(6) Motion to Dismiss based upon
claimed Noerr Pennington immunity (App. C, 25a32a), and plaintiffs purported inability to prove the
“sham litigation or fraud exception” applied, at the
pleadings stage (prior to any discovery and without
an evidentiary hearing), reveals inter-circuit splits,
between the Ninth Circuit and at least the Fourth
and Seventh Circuits, as to when issues of fact
concerning the sham litigation or fraud exception,
become “ripe” for adjudication.
For instance, concerning the when issue, the
same FRCP 12(b)(6) MTD that was granted in the
instant case (See App. C; 6a-57a), would have been
denied as premature, had it been brought in either
the Fourth Circuit or the Seventh Circuit.
The Fourth Circuit’s view, regarding the limited
reach of FRCP 12(b)(6) motions, is illustrated by the

15
case of Edwards v. City of Goldsboro, 178 F.3d 231,
243-244 (4th Cir. 1999), where the following is
stated:
“The purpose of a Rule 12(b)(6) motion is to
test the sufficiency of a complaint; ‘importantly,
[a Rule 12(b)(6) motion] does not resolve
contests surrounding the facts, the merits of a
claim, or the applicability of defenses.’
Republican Party u. Martin, 980 F.2d 943, 952
(4th Cir. 1992).”
Edwards v. City of Goldsboro
178 F.3d 231, 243-244 (4th Cir. 1999)
Similarly the understanding of the law within
the Seventh Circuit, regarding consideration of
affirmative defenses, is discussed in the case of
Xechem, Inc. v. Bristol-Myers Squibb Co., 372 F.3d
899, 901 (2004), where the following is stated:
“Orders under Rule 12(b)(6) are not
appropriate responses to the invocation of
defenses, for plaintiffs need not anticipate and
attempt to plead around all potential defenses.
Complaints need not contain any information
about defenses and may not be dismissed for
that omission. (Citations)”
Xechem. Inc, v. Bristol-Mvers Squibb Co.
372 F.3d 899, 901 (7th Cir. 2004)
Circuit splits upon this subject clearly exist, as
shown by the Ninth Circuit’s affirmance of the
District Court’s actions in the instant case.
Ill

16
B. The Circuits Are Split Upon How
The Adjudications Should Be Made
Inter-circuit splits also exist, between the Ninth
Circuit and at least the Third Circuit, concerning
how the materiality of alleged misrepresentations
should be evaluated (when appropriate).
In the Third Circuit case of Cheminor Drugs,
Ltd. V. Ethyl Corp., 168 F.3d 119, 123 (3rd Cir.
1999), the sham litigation’s fraud exception was
addressed and resolved upon a motion for summary
judgment, and that court explained how to review
claims of misrepresentations to the court, by stating:
“The Supreme Court has not addressed how
alleged misrepresentations affect NoerrPenington immunity or the sham exception to
Noerr-Penington immunity. In PRE, the Court
explicitly declined to decide whether the sham
exception to immunity would include situations
where the litigant had perpetrated ‘fraud’ or had
made ‘other misrepresentations.’ Id. at 61 n.6,
113 S.Ct. 1920. (fn. 11) Cheminor argues either
that Noerr- Penington immunity does not apply
at all to petitions containing misrepresentations
or that Ethyl’s alleged misrepresentations led to
the conclusion that the Ethyl’s AD/CVD petition
to the ITC and DOC was objectively baseless.
We decline to carve out a new exception to the
broad immunity that Noerr-Penington provides.
Rather, we will determine whether Ethyl’s
petition was objectively baseless under the
Supreme Court’s test in PRE, without regard to

17
those facts that Cheminor alleges Ethyl
misrepresented. If the alleged misrepresented
facts do not infect the core of Ethyl’s claim and
the government’s resulting actions, then the
petition had an objective basis and will receive
Noerr-Penington immunity under the first step
of PRE”
Cheminor Drugs. Ltd. V. Ethyl Corn..
168 F.3d 119, 123 (3rd Cir. 1999)
The Cheminor Court determined that the
starting point is the alleged sham petition or
pleading, from which all alleged misrepresentations
must be removed, before determining whether the
truncated, or cleansed, petition would still be
sufficient, and result in the same ruling.
In the Ninth Circuit, however, as illustrated by
the instant case, the alleged sham petition itself (the
Joint FRCP 12(b)(2) Motion to Dismiss, from Rupert
I), was never presented to, or considered by, the
District Court, in Rupert II.
Instead, the District Court restricted its review
to only the face of the very order from Judge Fogel
(App. G, 75a-82a), in Rupert I, that Rupert II argues
was procured through a successful fraud on the
court by a group of corrupt Officers of the Court
(who jointly concealed the crucial Hanson v.
Denckla, 357 U.S. 235, 251-253 (1958), jurisdictional
factors for trust disputes).
Also, the District Court compared the successful
FRCP 12(b) motion to a “winning lawsuit” (App. C,
28a), and cited to Professional Real Estate Investors,

18
Inc. v. Columbia Pictures Indus., 508 U.S. 49, 60 n.5
(1993).10
A winning lawsuit comes after the pleadings are
joined, necessary discovery takes place, and either a
trial is conducted or a dispositive motion is granted,
determining factual disputes, the legal issues, and
resulting in a judgment on the merits.
A successful FRCP 12(b)(2) motion, however,
resolves nothing on the merits, and effectively
deprives a plaintiff of his First Amendment rights.
C. Resolution Of These Circuit Splits
Will Provide Broad Benefits
Further guidance upon when and how, the
“sham litigation” or “fraud exception” to a claimed
Noerr-Penington immunity affirmative defense
should be decided, in regular civil proceedings,
could provide valuable and beneficial judicial
results. Especially if this Supreme Court’s guidance
was structured to discourage Officers of the Court
from filing objectively baseless FRCP 12(b)(2)
motions to dismiss that are based upon intentional
misrepresentations.

10 Within disputes regarding FRCP 13, it is widely agreed that
FRCP 12(b) motions to dismiss are not pleadings (.Mellon Bank.
N.A. v. Temisky, 999 F.2d 791, 795 (4th Cir. 1993). A holding
might be in order, that a successful MTD, at the inception of a
case, is also not the same as a “winning lawsuit” for purposes of
Noerr-Pennington immunity protections, and the analysis of
whether the MTD is objectively baseless because it is based
upon fraudulent misrepresentations.

19
II. Deep Inter-Circuit Splits Have Developed,
Concerning How And When To Apply
Walden v. Fiore, 134 S.Ct. 1115 (2014), To
Targeted Torts Involving Intentional
Misrepresentations Of Facts
The case of Walden v. Fiore, 134 S.Ct. 1115
(2014) has resulted in deep inter-circuit splits, as to
its meaning, scope, and application to dissimilar
situations, such as fraudulent misrepresentation
schemes that are alleged to have been concluded
(through reasonable reliance), in the forum state,
causing injury therein, to a forum resident plaintiff.
For instance, the Ninth Circuit has concluded
that Walden made drastic changes to how, and
when, the second prong of the Calder-effects test
(express aiming at the forum), is to be applied.
However, the First Circuit, the Second Circuit,
the Fifth Circuit and the Sixth Circuit have
concluded that Walden is readily distinguishable,
and its limitations are inapplicable, when
intentional torts are alleged, and the injurious
conduct alleged to have caused the tortious injury
(the false statements and reasonable reliance), is
alleged to have occurred in the forum state.
A.

The Dissenting Opinion in Morrill v.
Scott Financial Corp., 873 F.3d 1136,
1155 (9th Cir. 2017) Acknowledges
An Implicit Circuit Split With The
Sixth Circuit Case Of MAG IAS
Holdings Inc. v. Schmuckle, 854 F.3d
894 (6th Cir. 2017)

20
The current split between the Ninth Circuit and
the Sixth Circuit was even acknowledged in a
Dissenting Opinion entered by Senior Circuit Judge
Andrew J. Kleinfeld, in Morrill v. Scott Financial
Corp., 873 F.3d 1136, 1150-1155 (9th Cir. 2017),
where he stated the following, in pertinent part:
“I respectfully dissent. The majority gets the
law wrong and misapplies it to the extent it is
stated correctly.........................................................
The majority’s new rule creates at least an
implicit circuit split with the Sixth Circuit. In
MAG IAS Holdings Inc. v. Schmuckle, (fn. 40) a
Michigan company sued a German resident who
was CEO of its parent company. The German
resident invoked Walden and argued that
‘because he targeted his contacts only at
plaintiffs and not at Michigan itself there was
no jurisdiction, (fn. 41) The Sixth Circuit
rejected this view and held that ‘Walden simply
holds that an out-of-state injury to a forum
resident, standing alone, cannot constitute
purposeful availment.’ (fn. 42) ‘It would severely
limit the availability of personal jurisdiction if
every defendant could simply frame his conduct
as targeting only the plaintiffs and not the
forum state.’ (fn. 43) In Schmuckle and in our
case, the out-of-state injury to the forum
resident did not ‘stand alone.’ So we should, as
the Sixth Circuit did, conclude that Walden is
distinguishable.”
Morrill v. Scott Financial Corn..
873 F.3d 1136, 1150-1155 (9th Cir. 2017)

21
In the instant case, the District Court Order
Granting Motions to Dismiss (App. C, 40a-54a)
repeatedly ignored the out-of-state defendants
targeting of the plaintiff, by framing it as conduct
targeting only the plaintiff, but not the forum state
itself, (similar to the majority opinion in Morrill u.
Scott Financial Corp., 873 F.3d 1136, 1155 (9th Cir.
2017).
Thereafter, on appeal, in the instant case, the
Ninth Circuit’s unpublished Memorandum Opinion
affirmed the dismissals at the pleading stage, under
Walden, on the basis that, “the plaintiff cannot be
the only link between the defendant and the forum”
(See App. A, 2a)
B. Then Axiom Foods, Inc. v. Acerchem
International, Inc., 874 F.3d 1064, 1070
(9th Cir. 2017), Relied Upon Walden To
Effectively Eliminate Individualized
Targeting Of Known Forum Residents
The implicit circuit split that was acknowledged
in Morrill’s dissenting opinion became an actual
split with the publication of Axiom Foods, Inc. u.
Acerchem International, Inc., 874 F.3d 1064, 1070
(9th Cir. 2017).
The relevant holding from Axiom is set forth
below, in pertinent part:
“Following Walden, we now hold that while a
theory of individualized targeting may remain
relevant to the minimum contacts inquiry, it will
not, on its own, support the exercise of specific

22
jurisdiction, absent compliance with what
Walden requires.”
Axiom Foods. Inc, v. Acerchem International.
Inc.
874 F.3d 1064, 1070 (9th Cir. 2017)
Of course, it should not be forgotten that Walden
involved a truly “random” encounter with a TSA
Agent at an out-of-state airport in Georgia, and
there were no suggestions or allegations of any
“individualized targeting”. Moreover, the Walden
defendant had zero contacts with the forum state of
Nevada.
As such, it appears the Axiom Court forgot the
importance of the longstanding California rule of
jurisprudence that is set forth in Ginns v. Savage,
61 Cal.2d 520, 524, fn. 2 (1964), where the Court
stated:
“Language used in any opinion is of course to
be understood in the light of the facts and the
issue then before the court, and an opinion is not
authority for a proposition not therein
considered. (.McDowell & Craig v. City of Santa
Fe Springs (1960) 54 Cal.2d 33, 38 [4-5] [4 Cal.
Rptr. 176, 351 P.2d 344] and cases there cited.)”
Ginns v. Savage
61 Cal.2d 520, 524, fn. 2 (1964)
Additionally, the following recent California
case further confirms that Axiom changed the law in
the Ninth Circuit:

23
“It is no longer enough in the Ninth Circuit to
base specific jurisdiction on a defendant’s
individualized targeting of a plaintiff known to
reside in the forum state. (Axiom Foods, Inc. v.
Acerchem International, Inc., (9th Cir. 2017) 874
F.3d 1064, 1070 (Axiom Foods).) ‘Walden
requires more. (Axiom Foods, at p. 1069.)”
David L. v. Superior Court
29 Cal.App.5th 359, 373 (2018)
C. The First, Second And Fifth Circuits
Also Distinguish Walden, In Cases
Where “Targeting” And “Fraudulent
Misrepresentations” Are Alleged
First Circuit Court of Appeals
The case of Murphy v. Erwin-Wassey, Inc., 460
F.2d 661, 664 (1st Cir. 1972) states the following
pertinent rule of law:
“Where a defendant knowingly sends into a
state a false statement, intending that it should
there be relied upon to the injury of a resident
of that state, he has, for jurisdictional purposes,
acted within that state, (fn. 3) The element of
intent also persuades us that there can be no
constitutional objection to Massachusetts
asserting jurisdiction over the out-of-state
sender of a fraudulent misrepresentation, for
such a sender has thereby ‘purposefully
avail [ed] itself of the privilege of conducting
activities within the forum State, thus invoking
the benefits and protections of its laws.’ Hanson

24
v. Denckla, 357 U.S. 235, 253, 78 S.Ct. 1228,
1240, 2 L.Ed.2d 1283 (1958).”
Murphy v. Erwin-Wassev, Inc..
460 F.2d 661, 664 (1st Cir. 1972)
Murphy is still good law in the First Circuit, and
is still cited by the District Courts within the First
Circuit, post- Walden, such as in the case of LaBolita
v. Home Rental Connections Ltd., Civil No. 1611433-LTS; USDC District Massachusetts (June 13,
2017)
Second Circuit Court of Appeals
Under the Second Circuit’s “situs of injury test”.
The “situs” is not in the state from which the
fraudulent misrepresentation is sent, but in the
state where the intentional misrepresentation is
received and, most importantly, detrimentally relied
upon, as illustrated by the case of Hargrove v. Oki
Nursery, Inc., 636 F.2d 897, 899-900 (2nd Cir. 1980).
Hargrove is still good law in the Second Circuit,
as illustrated by the following post -Walden District
Court Order:
“A number of cases in this Circuit, however,
have held that the original event leading to the
injury in a misrepresentation action is
plaintiffs’ reliance on defendant’s
misrepresentation. See Bank Brussels, 171
F.3d at 792 (holding that the original event
causing injury was in New York where plaintiff
relied on defendant’s misrepresentation by
disbursing funds in New York); Hargrove v. Oki

25
Nursery, Inc., 636 F.2d 897, 900 (2nd Cir. 1980)
(holding that the original event causing injury
was in New York where plaintiffs relied on
defendant’s misrepresentations by purchasing
grape vines with funds in New York)”
Related Companies. LP v. Ruthling
Case No. 17-CV-4175
USDC SDNY (December 15, 2017)
Fifth Circuit Court of Appeals
Within the Fifth Circuit, intentional torts based
upon fraudulent misrepresentations directed into
the forum have also long been recognized, when the
detrimental reliance takes place in the forum state.
One such case is Wien Air Alaska, Inc. v.
Brandt, 195 F.3d 208, 212-213 (5th Cir 1999), where
the court stated the following, in pertinent part:
“When the actual content of communications
with a forum gives rise to intentional tort causes
of action, this alone constitutes purposeful
availment. The defendant is purposefully
availing himself of ‘the privilege of causing a
consequence’ in Texas. Cf. Serras v. First
Tennessee Bank National Ass’n, 875 F.2d 1212
(6th Cir. 1989). It is of no use to say that the
plaintiff ‘fortuitously’ resided in Texas. See Holt
Oil, 801 F.2d at 778. If this argument were
valid in the tort context, the defendant could
mail a bomb to a person in Texas but claim
Texas had no jurisdiction because it was
fortuitous that the victim’s zip code was in
Texas. It may have been fortuitous, but the

26
tortious nature of the directed activity
constitutes purposeful availment.”
Wien Air Alaska. Inc, v. Brandt.
195 F.3d 208, 212-213 (5th Cir 1999)
More recently, in Trois v. Apple Tree Auction
Center, Inc., 882 F.3d 485, 487, 491 (5th Cir. 2018),
the continuing validity of Wien was confirmed (Id. at
491).
Significantly, the Trois Court considered and
discussed the Walden case, but found it to be readily
distinguishable, as set forth below:
“[7] . . . .But Walden is distinguishable
because, unlike the defendant’s mere knowledge
of plaintiffs forum connections, the defendants
here reached out to Texas and allegedly made
false statements over the phone to a Texas
citizen to induce him to conduct business with
them. We focus on conduct, not mere
knowledge.”
Trois v. Annie Tree Auction Center. Inc.,
882 F.3d 485, 492 (fn. 7) (5th Cir. 2018)
Clearly, the circuit courts are split on how to
interpret, and when to apply, Walden’s limitations,
in tort actions alleging individualized targeting and
fraudulent misrepresentations that cross state lines.
III. The Inter-Circuit Splits Over Whether
Equitable Relief Is Available In A
Private Civil RICO Action Should Be
Addressed And Resolved

27
The importance of resolving the deep inter­
circuit split concerning the availability of equitable
relief to a private civil RICO plaintiff can hardly be
doubted, given that two (2) prior petitions for a writ
of certiorari were granted within the last 20 years,
to address the equitable relief question.
Unfortunately, the specific facts and legal
holdings that were made in those other two (2)
related cases (Scheidler v. National Organization for
Women, Inc., 537 U.S. 393, 397 (2003) “NOWF; and
Scheidler v. National Organization for Women, Inc.,
547 U.S. 9, 16 (2006) “NOWIF), made it
unnecessary, and inappropriate, to resolve the
equitable relief question (in private civil RICO
actions).
Initially, the circuit split was between the first
circuit to rule upon the matter, the Ninth Circuit
(Religious Technology Center u. Wollersheim, 796
F.2d 1076 (9th Cir. 1986) and the Seventh Circuit
(National Organization for Women,-Inc. v. Scheidler
(NOWI), 267 F.3d 687, 695 (7th Cir. 2001).
Subsequently, however, the Second Circuit has
joined the Seventh Circuit, in Chevron Corp. v.
Donziger, 833 F.3d 74, 137-139 (2nd Cir. 2016), to
also rule that the Ninth Circuit’s methodology and
analysis was flawed, not consistent with RICO’s
“Liberal Construction Clause” (See Pub. L. 91-452,
title IX, § 904, Oct. 15, 1970, 84 Stat. 947), and
equitable relief is available in private civil RICO
actions, consistent with 18 U.S.C. § 1964(a), under
appropriate circumstances, if the legal remedies are
inadequate.

28
In pertinent part, the Donziger Court agreed
with the reasoning set forth in NOW I (267 F.3d at
696) and stated the following:
“Given this interpretation, we reject
Donziger’s contention that equitable relief is not
available to Chevron under RICO.”
Chevron Corn, v. Donziger.
833 F.3d 74, 139 (2nd Cir. 2016)
Quite clearly, there is a deep split, upon an
important subject, pertaining to the judicial tools
that can be used, and the remedies that may be
sought by a plaintiff, in a private civil RICO action.
IV. The Ninth Circuit’s Decision Also
Reflects an Existing Circuit Split With
Regards To Other RICO Issues
The Ninth Circuit appears to be more resistant
to giving the RICO statutes a liberal construction,
and empowering “Private Attorney Generals”, in
private civil RICO actions, than the other circuits
that have addressed the same questions of statutory
construction.
A. The Circuit Splits Over Which
Subsections Of 18 U.S.C. § 1965 Can
Authorize Nationwide Service Of
Process Should Be Resolved
At the current time, the circuit courts are split
over which subsection of 18 U.S.C. § 1965 provides
for nationwide service of process upon, and the

29
conferral of personal jurisdiction over, defendants
residing beyond the federal court’s district.
Four (4) circuits have concluded that 18 U.S.C. §
1965(b) is the controlling subsection. The first
circuit was the Ninth Circuit, in Butcher’s Union
Local No. 498 v. SDC Inv., Inc., 788 F.2d 535, 538
(9th Cir. 1986). Subsequently, the Seventh Circuit
(Lisak v. Mercantile Bancorp, Inc., 834 F.2d 668, 671
(7th Cir. 1987), the Second Circuit (PT United Can
Co. u. Crown Cork & Seal Co., 138 F.3d 65, 70 (2nd
Cir. 1998), and the Tenth Circuit (Cory v. Aztec Steel
Building, Inc., 468 F.3d 1226, 1231 (10th Cir. 2006),
have concurred with the Ninth Circuit’s analysis.
On the other hand, two (2) circuits have
concluded that 18 U.S.C. § 1965(d) can also
authorize nationwide service of process. These are
the Eleventh Circuit (Republic of Panama v. BCCI
Holdings (Luxembourg) S.A., 119 F.3d 935, 942-48
(11th Cir. 1997) (which interestingly cited Lisak for
support), and the Fourth Circuit (ESAB Group, Inc.
v. Centricut, Inc., 126 F.3d 617, 627 (4th Cir. 1997).
B. The Circuit Splits Concerning The
“Ends Of Justice” Standard Should
Be Addressed And Resolved
At the current time, the circuit courts are also
split over whether the “ends of justice” language
contained in 18 U.S.C. § 1965(b) has only a single,
rigid meaning, as first set forth in Butcher’s Union
Local No. 498 v. SDC Inv., Inc., 788 F.2d 535, 538
(9th Cir. 1986); or, whether the standard should be
more flexible, and decided on a case by case basis,

30
where other considerations can be taken into
consideration, as set forth in Cory v. Aztec Steel
Building, Inc., 468 F.3d 1226, 1231 (10th Cir. 2006).
The Cory Court’s split with the Butcher’s Union
Court, is set forth below, in pertinent part:
“Accordingly, we conclude that the ‘ends of
justice’ analysis is not controlled by the fact that
all defendants may be amenable to suit in one
forum. In so holding, we disagree with the
Ninth Circuit, which reached the contrary
conclusion by inadequately considering the
congressional intent underlying RICO and by
ignoring federal antitrust legislation. See
Butcher’s Union, 788 F.2d at 539 (stating,
without elaboration, that the lower court had
properly considered RICO’s purpose ‘and the
phrase’s location in the section providing for
nationwide service of process’). We need not,
however, offer a competing definition, as the
‘ends of justice’ is a flexible concept uniquely
tailored to the facts of each case.”
Corv v. Aztec Steel Building. Inc.
468 F.3d 1226, 1233 (10th Cir. 2006)
In a similar vein, at least two District Court’s
within the Fifth Circuit have also adopted the more
flexible approach advocated by Cory, and held that
the ends-of-justice requirement can also be met
when the defendants employed a common
fraudulent scheme in multiple countries or in
multiple states. (See Rolls-Royce v. Heros, Inc., 578
F.Supp.2d 765, 779-80 (N.D. Texas 2008); David v.

31
Signal Inti, 588 F.Supp.2d 718, 724 (E.D. La.
2008)).
V. The Instant Case, Rupert II, Would Allow
Meaningful Consideration Of Any, Or All,
Of The Circuit Splits Specified Above
In the instant case, the Ninth Circuit’s short
Memorandum Opinion is unpublished (App. A, la4a), so it would seem to have little impact.
However, it affirms a sweeping and comprehensive
District Court Dismissal Order (App. C, 6a-57a),
that itself is a published legal authority (.Rupert v.
Bond, 68 F.Supp.3d 1142 (2014)), that is relied
upon, within the Ninth Circuit’s jurisprudence.
Accordingly, it can fairly be said that either: (1)
the Ninth Circuit adopts and ratifies the legal
reasoning and judicial holdings expressed by the
District Court; or, (2) the Ninth Circuit has not done
an adequate job supervising the District Courts
within its circuit, if it disagrees with the legal
reasoning and judicial holdings expressed by the
District Court, in the Dismissal Order.
In any event, the instant case, and particularly
the District Court’s sweeping Dismissal Order
(including matters revealed by the Reporter’s
Transcript of the only hearing in the case), raises
issues that would effectively allow meaningful
consideration of all of the Circuit splits that are
identified in the Questions Presented, section of this
Petition for Writ of Certiorari, it is submitted.

32
A. The Circuit Splits Regarding Use Of
FRCP 12(b)(6) Motions To Dismiss, The
Noerr-Pennington Doctrine, And The
“Sham Litigation” Exception Are All
Involved In The Instant Case
The District Court’s Dismissal Order (App. C,
6a-57a devotes 9 pages (23a-32a) to its discussion of
why the Noerr-Pennington immunity affirmative
defense bars all claims against the Zusman
Defendants, based upon the District Court’s
determination that the “Sham Litigation” exception
could not be claimed, and the allegedly dishonest
FRCP 12(b)(2) MTD’s from Rupert I, could not be
considered “baseless” because the MTD was
successful (and comparable to the “winning lawsuit”
which is discussed in Professional Real Estate
Investors, Inc. v. Columbia Pictures Indus. (“PRE”),
508 U.S. 49, 60 n.5 (1993)).
The District Court’s Dismissal Order further
admits that the plaintiff objected to the timing, as
premature, but rejected the objection by plaintiff,
and the cases he cited as authority. (App. C, 26a27a, fn. 7)
Additionally, the District Court’s Order denying
reconsideration (App. D, 58a-69a) again reaffirms its
rulings as not premature at the pleadings stage
(App. D, 64a), and again reaffirms the Court’s
reliance upon PRE, as authority for rejecting the
“sham litigation” exception claim by the plaintiff
(App. D, 63a).

33
Accordingly, the District Court’s consideration of
these legal topics and issues is fulling consistent
with, and emblematic of, the views otherwise
commonly expressed by and within the Ninth
Circuit.
Whereas, the views upon the same legal topics
and Noerr-Pennington issues by the Third Circuit,
the Fourth Circuit and the Seventh Circuit are quite
different, and not slanted so much in favor of
judicial efficiency, through resolution of disputed
issues of fact before the issues are even joined in a
case. Therefore, if Certiorari were to be granted, the
instant case would be a good vehicle to use to
explore all aspects of these important legal
questions.
B. The Circuit Splits Regarding The
Impact, If Any, Of Walden v. Fiore, 134
S.Ct. 1115 (2014), To Torts Involving
Fraudulent Misrepresentations Sent
Into A Forum State, Can Be Effectively
Reached And Resolved, Through
Review Of The Instant Case
The District Court’s Dismissal Order (App. C,
6a-57a devotes 15 pages (40a-54a) to its discussion
of specific personal jurisdiction, and how the
analysis has been significantly altered by Walden v.
Fiore, 134 S.Ct. 1115 (2014)W
11 Interestingly, Walden was raised by, and relied upon by, the
District Court on a sua sponte basis, although: (1) it had not
been mentioned by any of the defendants in their papers, or at
oral argument upon their motions to dismiss; and, (2)

34

In affirming the District Court, the Ninth
Circuit relied upon Walden’s holding that “the
plaintiff cannot be the only link between the
defendant and the forum.” (Id. at 1123) (App. A, 2a)
The District Court ruling includes the following
reasoning, that was used to disregard all matters
pertaining to contacts with, or pertaining to matters
involving, Plaintiff William (regardless of location,
or the tortious nature of the conduct):
“Walden v. Fiore, 134 S.Ct. 1115, 1122 (‘[The]
minimum contacts analysis looks to the
defendant’s contacts with the forum State itself,
not the defendant’s contacts with persons who
reside there .... [T] he plaintiff cannot be the
only link between the defendant and the forum.’)
(emphasis added).” (See App. C, pp. 51a)
The District Court also ruled that the unilateral
actions of Plaintiff William, in commencing Rupert I
on June 22, 2009, caused the defendants in that
action to thereafter file their dishonest declarations
and joint motion to dismiss (on November 4, 2009),
and to present their dishonest oral argument to
Judge Fogel (on January 8, 2010), that was used to
perpetrate a knowing and intentional fraud on the
court, through concealment of the jurisdictional
supplemental briefing upon Walden was not suggested,
permitted, or ordered by the District Court. The AOB (ECF 8;
p. 28) suggested this was prejudicial error, but this assignment
of error was not commented upon by the Ninth Circuit (App. A,
la-4a)

35
facts that were found to be significant in Hanson u.
Denckla, 357 U.S. 235, 251-253 (1958). (See App. C,
pp. 44a, 51a)
As stated by the District Court:
“Here, Plaintiff created Defendants’ contacts
with the forum by virtue of filing suit here.”
(App. C, 52a)
The views expressed by the District Court, and
affirmed by the Ninth Circuit, are basically
consistent with the previously discussed Ninth
Circuit cases of Morrill v. Scott Financial Corp., 873
F.3d 1136, 1150-1155 (9th Cir. 2017), and the
majority opinion in Axiom Foods, Inc. v. Acerchem
International, Inc., 874 F.3d 1064, 1070 (9th Cir.
2017).
However, the views expressed by the Ninth
Circuit are sharply at odds with the views expressed
by the First Circuit, the Second Circuit, the Fifth
Circuit the Sixth Circuit, and the dissenting
Opinion in Morrill, upon how, and if, Walden should
be applied to torts involving “targeting” and
“fraudulent misrepresentations”.
As such, if Certiorari were to be granted, the
instant case would be a good vehicle to use to
explore all sides of these important legal questions,
concerning how Walden should be applied, when a
defendant’s jurisdictional contacts with a forum
resident plaintiff, and the forum itself, are alleged to
have been “intertwined” (as in the instant case,
where this unresolved issue of first impression was

36
set forth in the AOB that was filed with the Ninth
Circuit, after it was also raised below, in a trial
court reconsideration motion (CD 107), after Walden
was initially raised sua sponte by the District Court,
in the Dismissal Order). (ECF 8; AOB, p. 25-31)
C. The Circuit Splits Regarding The
Availability Of Equitable Relief In
Private Civil RICO Actions Can Be
Effectively Reached By Review Of
The Instant Case
Seemingly because the Ninth Circuit is one of
the circuits that holds equitable relief cannot be
obtained in a private civil RICO action, both the
District Court and the Ninth Circuit have entirely
disregarded the SAC’s Prayer, that seeks equitable
relief by way of its Prayer for declaratory judgments
upon a number of subjects and issues.
However, in the instant case of Rupert v. Bond
II, the Reporter’s Transcript (ECF 72; pp. 4-89)
shows that the Chevron Corp. v. Donziger case was
mentioned 3 times (ECF 72; 19:5-20:7; 21:22-22:5 &
83:2-5), and a Statement of Recent Decision, with
Chevron Corp. v. Donziger, 974 F.Supp.2d 362
(2014) attached, was filed (DC 157) with the District
Court. District Court Judge Kaplan’s ruling was
ultimately affirmed by the Second Circuit in
Chevron Corp. v. Donziger, 833 F.3d 74, 137-139 (2nd
Cir. 2016).
The Donziger Case was presented as authority
for the injunctive relief that was being sought, by
the operative pleading, from inter alia the alleged

37
corrupt and invalid Oregon state court judgments
(that were tainted by alleged extra-judicial Officer of
the Court misconduct, and the failure to join all
necessary parties).
The alleged extra-judicial Officer of the Court
misconduct schemes included an entirely improper
off-the-record ex parte telephone conference hearing
with Presiding Judge Maurer, by Defendant
Whitman (CD 106; SAC ^ 87), upon Plaintiffs last
minute request for a continuance (of both
CV10030497 and CV10030498) (due to the lack of
any advance notice of trial, due to the need to
conduct discovery and obtain Irene Rupert’s medical
records, and due to the need to retain replacement
counsel, after the law firm he hired unexpectedly
abandoned Plaintiff William, following a phone
conversation with Defendant Whitman, where he
made material misrepresentations and interfered
with Plaintiff Williams attorney-client relationship.
(CD 106; SAC 1 85)
Following the “Bum’s Rush Ambush Bench Trial
that ensued, over Plaintiffs objections, before
Oregon Judge Welch, a tainted judgment was
entered in CV10030497, that failed to adjudicate
Plaintiff William’s Affirmative Defenses and
Counter-Claims, such as Defendant Susan Bond’s
“unclean hands” as an intermeddling trustee de son
tort. (CD 106; SAC 1Hj 86-88) Plaintiff William’s
issues were simply dismissed, for lack of standing,
so the merits were not reached, after his civil death
was declared.

38
The alleged extra-judicial Officer of the Court
misconduct schemes also included obtaining the
entry of a judgment (Case No. CV10030498), from
Judge Welch, that she never rendered, after either a
trial or a dispositive motion. (CD 106; SAC f 90).
The alleged extra-judicial Officer of the Court
misconduct schemes also included an impromptu
bench trial (in Case No. CV10050251), in the
absence of Plaintiff William and without any
advance notice of trial (upon the Petition to Remove
Trustee, in an action where the Trustee was never
made a party to the action, and never appeared in
the action, so fundamental jurisdiction was never
acquired). (CD 106; SAC ^ 92)
The Reporter’s Transcript also shows (ECF 72;
22:9-13) that plaintiff William additionally informed
the District Court that he had exhausted all his
legal remedies from the allegedly corrupt, invalid,
and dishonest Oregon judgments, as of June 9, 2014,
because of the denial of Plaintiff William’s Petition
For Writ of Certiorari, by this Court, in related
Supreme Court Case No. 13-1322 {Rupert v. Bond, et
al, 134 S.Ct. 2738 (2014))
However, the District Court shrugged off
Donziger, stating the Court lacked any “equitable
powers” (ECF 72; 82:20-21), and also stating:
“But please be clear, RICO claims are not
within the inherent equitable powers of the
Court. That is statutory and there is decisional
law that I have to apply.”
(ECF 72; 82:24-83:1)

39
Similarly, before the Ninth Circuit, a Petition
for Rehearing and Rehearing En Banc was timely
filed (ECF 77), that pointed out the operative
pleading sought a declaratory judgment that
Petitioner lawfully created his Successor
Trusteeship of the irrevocable Samuel J. Rupert
Trust, located in Ben Lomond, CA, by formal
Notices of Acceptance of Trust that were delivered
in Michigan and Oregon on July 8, 2009. (ECF 77,
pp. 17-18).
Accordingly, a grant of certiorari in the instant
case, to consider if, and when, equitable relief is
available, would allow this Supreme Court to reach
and actually decide the question.
D. The Circuit Splits Concerning RICO’s
Nationwide Service Of Process
Provisions, And RICO’s “Ends Of
Justice” Jurisdiction, Are Well
Presented By The Instant Case
The District Court’s Dismissal Order (App. C,
6a-57a devotes 6 pages (35a-40a) to its discussion of
“ends of justice” jurisdiction, under 18 U.S.C. §
1965(b) of the RICO statutes.
The Dismissal Order states:
“A plaintiff seeking to exercise jurisdiction
pursuant to RICO’s ‘ends of justice’ provision
faces a high hurdle. It is the plaintiff s burden
to affirmatively show that no other district could
exercise jurisdiction over all the alleged co­
conspirators.” (App. C, 39a-40a)

40
Then the Dismissal Order acknowledges that
the SAC (CD 106; SAC f 1, fn. 1,1 7) sufficiently
alleges that Oregon could not exercise jurisdiction
over Defendant Edward S. Zusman, who resides and
practices law only in California, and whose
representation of Oregon clients in Rupert I, after
they sought him out, only took place in California.
(App. C, 38a-40a). However, these allegations were
deemed insufficient by the District Court, as it
ruled:
“The burden is on the plaintiff to ‘adduce
evidence that there is no other district’ that
could hale all of the alleged co-conspirators
before its courts” (App. C, 37a)
.
It appears the District Court set an impossible
standard, by demanding evidence of something that
doesn’t exist, because it is impossible to prove a
negative. Especially, at the pleadings stage, prior to
any discovery or an evidentiary hearing (when only
a prima facie showing was supposed to be required,
under FRCP 12(b)(2)).
The Ninth Circuit should not have affirmed the
impossible “ends of justice” standard that was
adopted by the District Court.
CONCLUSION
The Writ of Certiorari should be granted, to
resolve circuit splits and to exercise necessary
supervisory powers, under Rule 10(a), of the Rules
of the Supreme Court of the United States, which
states the following, in pertinent part:

41

“Review on a writ of certiorari is not a matter
of right, but of judicial discretion. A petition for
a writ of certiorari will be granted only for
compelling reasons. The following, although
neither controlling nor fully measuring the
Court’s discretion, indicate the character of the
reasons the Court considers:
(a) a United States court of appeals
has entered a decision in conflict with the
decision of another United States court of
appeals on the same important matter;
or has so far departed from the accepted and
usual course of judicial proceedings, or
sanctioned such a departure by a lower
court, as to call for an exercise of this Court’s
supervisory power;”
Rule 10(a): Rules of the Supreme Court
(Effective July 1, 2019)
Dated: October 15, 2019
WILLIAM RUPERT
P.O. Box 66403
Scotts Valley, CA 95067-6403
Telephone: (831) 336-9520
Facsimile: (831) 336-9528
emfwtr@comcast.net
Email:
Petitioner
Pro Se

